HHS/OIG, Audit -"Review of Selected Paid Claims with Therapy Services Submitted to Medicare
by Total Patient Care Home Health, LLC for the Period October 1, 2002, through September 30, 2003,"(A-04-05-02000)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Selected Paid Claims with Therapy Services Submitted to Medicare by Total Patient Care
Home Health, LLC for the Period October 1, 2002, through September 30, 2003," (A-04-05-02000)
September 20, 2005
Complete
Text of Report is available in PDF format (506 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether selected home health claims that included therapy services
provided by Total Patient Care Home Health, LLC (Total Patient Care) to Medicare beneficiaries met
Federal requirements and were appropriately paid.  Home health episodes with 10 or more therapy
services result in an increased payment to home health agencies.  A medical record review determined
that 22 claims contained therapy services that were not reasonable.  Projecting the results of
the overpayments in our random sample to the universe, the provider received an estimated $63,425 in
overpayments for claims billed to Medicare.
We recommended that Total Patient Care work with the Regional Home Health Intermediary to reimburse
the Medicare program $63,425 for unallowable therapy services, identify and submit adjusted claims
for Medicare overpayments received subsequent to our audit period, and strengthen controls to ensure
that the therapy services provided are reasonable and medically necessary.  In response to our
draft report, Total Patient Care agreed with our findings.